                    U.S. Department of Agriculture

                       Office of Inspector General
                                Southwest Region




          Audit Report




       Farm Service Agency
 Socially Disadvantaged Borrower
Foreclosures – Farm Program Loans




                           Report No. 03601-49-Te
                                        June 2009
                             UNITED STATES DEPARTMENT OF AGRICULTURE

                                                    OFFICE OF INSPECTOR GENERAL


                                                          Washington, D.C. 20250


June 8, 2009



REPLY TO
ATTN OF:             03601-49-Te

TO:                  Douglas J. Caruso
                     Administrator
                     Farm Service Agency

THROUGH:             T. Mike McCann
                     Director
                     Operations Review and Analysis Staff

FROM:                Robert W. Young /s/
                     Assistant Inspector General
                      for Audit

SUBJECT:             Socially Disadvantaged Borrower Foreclosures – Farm Program Loans


Under the 2008 Farm Bill, Congress directed the Office of Inspector General (OIG) to ―determine
whether decisions of the [Department of Agriculture (USDA)] to implement foreclosure proceedings
with respect to farmer program loans made under subtitle A, B, or C of the Consolidated Farm and Rural
Development Act … to socially disadvantaged farmers or ranchers during the 5-year period preceding
[June 18, 2008] were consistent and in conformity with the applicable laws (including regulations)
governing loan foreclosures.‖1, 2 Congress required that we report our findings no later than June 18,
2009.

For purposes of FSA‘s farm loan programs, socially disadvantaged groups are women, African
Americans, American Indians, Alaskan Natives, Hispanics, Asian Americans, and Pacific Islanders.3
Various lawsuits have been filed containing allegations that USDA discriminated against




1
  Public Law 110-246, Food, Conservation, and Energy Act of 2008, title XIV, subtitle A, section 14002(b)(1), dated June 18, 2008.
2
  Subtitles A, B, and C represent three types of direct loans—farm ownership, farm operating, and emergency loans [Title 7, United States
Code (U.S.C.), section1922; 7 U.S.C. 1941; and 7 U.S.C. 1961] administered by the Farm Service Agency (FSA). A socially disadvantaged
farmer or rancher is defined by statute as one who is a member of a socially disadvantaged group. A socially disadvantaged group is, in turn,
defined as a group whose members have been subjected to racial, ethnic, or gender prejudice because of their identity as a member of a group
without regard to their individual qualities [7 U.S.C. 2003(e)].
3
  FSA Handbook 3-FLP, Direct Loanmaking, (Revision 1), dated December 31, 2007.
Douglas J. Caruso                                                                                                                         2


members of socially disadvantaged groups regarding farm loan programs, including but not
limited to allegations regarding loan making and/or loan servicing.4

In order to meet the mandated deadline of June 18, 2009, we limited our review to whether FSA
followed its established process in servicing and foreclosing on loans to socially disadvantaged
borrowers, and whether the agency‘s process was consistent and in conformity with applicable laws and
regulations. We did not determine if borrowers were eligible for their loans, nor did we review FSA‘s
loan making process.

For fiscal years (FY) 2003 through 2007, each year, on average, there were about 75,500 borrowers who
had direct loans—of these, about 14,300 were socially disadvantaged. Of the 800 borrowers FSA
foreclosed on during the same period,5 185 were socially disadvantaged. OIG selected a statistical
sample of 146 borrowers—socially disadvantaged and non-socially disadvantaged—who were
foreclosed on during this 5-year period. (See exhibit B for details concerning our sampling
methodology.)

We also expanded our review to include the loan restructure process, which is a part of loan servicing.
When borrowers become delinquent on their payments or are otherwise financially distressed, they are
given the opportunity to adjust their loans so they can continue making payments and are not forced to
sell the property used to secure the loans. Since the opportunity to restructure a loan offers borrowers an
alternative to foreclosure, we looked at restructured loans to determine if socially disadvantaged
borrowers were treated similarly to non-socially disadvantaged borrowers. Of the 1,271 borrowers
whose loans were restructured from FYs 2003 through 2007, we reviewed a statistical sample of
87 borrowers.6 (See exhibit B.)

Based on our review, we found that FSA‘s foreclosure and restructure process was consistent and in
conformity with applicable laws, regulations, policies, and procedures. We found that the process itself
was in conformity with applicable laws and regulations, and that FSA generally applied that process
consistently to individual borrowers. Moreover, when we compared how FSA restructured and
foreclosed loans to socially disadvantaged and non-socially disadvantaged borrowers, we found that the
borrowers were processed consistently.

Although we did identify some instances where FSA was not technically in conformity with laws,
regulations, policies, or procedures, the exceptions were not significant and were usually a matter of
timing. For example, we found a few cases in which a letter notifying borrowers that they were
delinquent was not timely sent out, but the letter was eventually sent before the next loan servicing
action occurred. Moreover, we found that these exceptions affected non-socially disadvantaged
borrowers as well as socially disadvantaged borrowers.



4
  Timothy C. Pigford v. Tom Vilsack, Secretary of Agriculture, Civil Action No. 97-01978; George B. Keepseagle, et al. v. Tom Vilsack,
Secretary of Agriculture, Civil Action No. 99-03119; Rosemary Love, et al. v. Tom Vilsack, Civil Docket No. 1:00-cv-02502 (JR), U.S. District
Court for the District of Columbia; Guadalupe Garcia, et al. v. Tom Vilsack, Civil Docket No. 1:00-cv-02445 (JR), U.S. District Court for the
District of Columbia; and In re Black Farmers Discrimination Litigation, Civil Misc. Docket No. 08-0511 (PLF), U.S. District Court for the
District of Columbia (Pigford II).
5
  There were 800 borrowers foreclosed on in the contiguous 48 States during this time period. Eleven borrowers in Alaska, Hawaii, Puerto Rico,
and Guam were excluded from consideration due to the small number of borrowers and to audit resources. (Alaska [0 socially disadvantaged
borrowers, 2 non-socially disadvantaged borrowers], Hawaii [3,2], Puerto Rico [3,0], Guam [1,0].)
6
  We limited our sample of borrowers with restructured loans to those locations where we were already reviewing the 146 foreclosed borrowers.
Douglas J. Caruso                                                                                        3


BACKGROUND

FSA‘s mission is to equitably serve all farmers, ranchers, and agricultural partners through the delivery
of effective, efficient agricultural programs for all Americans. As part of that mission, FSA makes and
guarantees loans to farmers and ranchers to purchase farmland and finance agricultural production.

FSA makes and services direct farm loans including farm ownership, farm operating, and emergency
loans. Farm ownership loans may be used to purchase or enlarge a farm or ranch, purchase easements or
rights of way needed in the farm‘s operation, erect or improve buildings, implement soil and water
conservation measures, and pay closing costs. Farm operating loans may be used to purchase livestock,
including poultry, and farm equipment, or to pay annual farm operating expenses such as feed, seed,
fuel, fertilizer, chemicals, and insurance. Emergency loans are used to help producers recover from
production and physical losses due to drought, flooding, other natural disasters, or quarantine.

Within FSA, the process of making loans is distinct from the process of servicing loans—loan making
and loan servicing are handled by different divisions with different personnel. Restructure and
foreclosure actions are part of loan servicing.

When borrowers cannot make scheduled payments on their loans, or are otherwise financially distressed,
Federal law provides a process by which the borrowers‘ loan accounts can be serviced to avoid
foreclosure and liquidation.7 This process is known as restructuring the loan. Borrowers can be
considered for restructure of their loan (i.e., rescheduling, reamortization, consolidation, deferral, or
write-down of the amount owed) as long as the Government will receive an equal or greater net return
than it would realize through foreclosure.

To determine if a borrower‘s loan can be restructured, FSA uses loan servicing software called the Debt
and Loan Restructuring System (DALR$). Based on financial information provided to FSA by the
borrower, and entered into DALR$ by FSA, DALR$ performs debt and loan restructuring analysis on
distressed borrowers or delinquent Government loans to determine optimal debt restructuring
alternatives. It then develops a restructuring plan that is advantageous to the Government and the
borrower. If DALR$ indicates that a plan for restructuring the loan cannot be developed,
State-sponsored mediation or a meeting of creditors is offered. If restructure is not possible after
mediation, the borrower has the opportunity to purchase the debt at the current market value of the
security and any non-essential assets. The remainder of the debt is written off when the buyout is
accomplished. If the borrower is unable to take advantage of the buyout option, FSA is required to
proceed with foreclosure in an effort to recover as many tax dollars as possible.

OBJECTIVE

The objective of the audit was to determine whether the Department‘s decisions to implement
foreclosure proceedings with respect to socially disadvantaged borrowers were consistent and in
conformity with the applicable laws and regulations governing loan foreclosures.




7
    Public Law 100-233, Agricultural Credit Act of 1987, title VI, section 617, dated January 6, 1988.
Douglas J. Caruso                                                                                                                         4


SCOPE AND METHODOLOGY

Our audit covered FSA direct farm ownership loans, direct farm operating loans, and direct emergency
loans that had been restructured or had been foreclosed on from FYs 2003 through 2007. FSA provided
the foreclosure and restructure universe data. We refined the data to remove inaccuracies such as
multiple foreclosure sale dates and incorrect tax identification numbers and to exclude duplicates,
third-party foreclosures, and borrowers outside the audit scope.

For each year our audit covered (FYs 2003-2007), there were, on average, about 75,500 borrowers with
direct loans, about 14,300 of whom were socially disadvantaged. The foreclosure universe was defined
as borrowers with FSA foreclosures. Of the 800 borrowers8 the agency foreclosed on during the same
period, 185 were socially disadvantaged. The audit universe consisted of 356 foreclosed borrowers in the
138 locations where there was at least one socially disadvantaged borrower.9 From this audit universe,
we sampled 146 borrowers at 60 locations using a two-stage sampling process. (See exhibit B.)

Our audit also included a review of borrowers with restructured loans to determine if the restructure
proceedings were consistent and in conformity with applicable laws and regulations. The audit
restructure universe was defined as borrowers whose loans were restructured during the same period
(FYs 2003-2007) and who were in the same locations as the foreclosed borrowers in our audit universe.
This universe consisted of 1,271 borrowers, of whom 306 were socially disadvantaged farmers and
ranchers. From the 60 locations we were already visiting to review foreclosures, we sampled
258 restructures. We reviewed restructures in the first 20 locations, but then halted our stop-or-go
sampling after 87 restructures because we found that the number and significance of the exceptions were
low. (See exhibit B for more details on our sampling plan and analysis of results.)

To accomplish our audit objective, we interviewed FSA national and State office officials and analyzed
supporting documentation obtained from these offices as well as from the county offices. Specifically,
we:
        Determined the applicable laws, regulations, policies, and procedures for farm loan servicing;
        Confirmed the Office of the General Counsel‘s (OGC) role in reviewing FSA loan servicing
        regulations, policies, and procedures;
        Reviewed documentation related to national and State office oversight activities; and
        Became familiar with FSA‘s automated systems for farm loan servicing.

Fieldwork began in June 2008 and ended in March 2009. We performed file reviews of FSA‘s farm
loan program records for selected borrowers and followed up with FSA State officials as deemed
necessary. In an effort to make the file reviews consistent among our review sites, we developed and
used a pro forma document to conduct and record the results of our reviews of each of the borrower
files. However, since the loan servicing actions may have begun as much as 20 years earlier, the FSA
State officials we interviewed were often not aware of the circumstances surrounding the loan servicing
actions. Since 1997, FSA has required all foreclosure cases to be reviewed and cleared by its civil rights
staff at the State offices.


8
  There were 800 borrowers foreclosed on in the contiguous 48 States during this time period. Eleven borrowers in Alaska, Hawaii, Puerto Rico,
and Guam were excluded from consideration due to the small numbers and cost of travel. Loan servicing actions for many of the borrowers may
have begun prior to FY 2003 and, for some, as far back as 1988.
9
  The audit universe of 356 borrowers contained 185 socially disadvantaged and 171 non-socially disadvantaged borrowers.
Douglas J. Caruso                                                                                                                          5


Initially, we planned to perform our fieldwork where each of the selected foreclosed borrower‘s files
were located. We made the decision to exclude from the sampling process the 11 borrowers from
Alaska, Hawaii, Puerto Rico, and Guam due to audit resources and the small number of borrowers
at those locations. Subsequently, we determined that, due to the number of individual locations we
would have needed to visit in order to review the selected borrowers‘ files, all the files would be
transferred to seven centralized sites. The review teams worked at FSA‘s State offices in Little Rock,
Arkansas; Alexandria, Louisiana; College Station, Texas; Jackson, Mississippi; Harrisburg,
Pennsylvania; Athens, Georgia; and Columbia, Missouri.10 The seven sites were chosen based on the
general locations of the files. (See exhibit C.)

Given the ongoing civil rights lawsuits, we interviewed attorneys from OIG‘s Office of Counsel, OGC,
and the Department of Justice to determine how we should proceed if we needed to communicate with
borrowers who were complainants in such lawsuits against USDA. Ultimately, however, we did not find
it necessary to contact any borrowers during the audit.

For the foreclosures and the restructures in our sample, we also verified the data FSA employees entered
into the agency‘s DALR$ software, which is used to determine if a loan may be restructured. We
verified this data because an input error could result in borrowers being foreclosed on when other
options were available. We found no significant discrepancies in the data entered into DALR$, and none
of the identified data input errors affected the restructuring determinations. Since we found no
significant data discrepancies and FSA had established appropriate oversight procedures, we are not
reporting these discrepancies, nor are we making recommendations concerning DALR$ data entry.

DALR$ was replaced by the Web-based eDALR$ program in April 2008, prior to the beginning of our
audit. Since DALR$ was superseded, we did not perform a separate review of its application controls.
We did, however, perform a separate review of application controls over eDALR$. Our review was
designed to determine if there were adequate controls over this Web-based servicing software. We found
that the software had adequate controls in place and was operated in accordance with National Institute
of Standards and Technology guidance.

We conducted this performance audit in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. The evidence obtained provides a reasonable basis for our conclusions based on our
audit objective.

DETAILS

Our review disclosed that the Department‘s foreclosure and restructure processes were generally
consistent and in conformity with applicable laws and regulations, and that socially disadvantaged and
non-socially disadvantaged borrowers were treated consistently when their loans were restructured or
foreclosed. To reach this conclusion, we analyzed FSA‘s loan servicing process to identify critical points
where an agency employee might not conform with law, regulation, policy, and procedure. We called
these critical points ―key events.‖ For the foreclosure process, we identified 28 such key events; for the
10
   One socially disadvantaged borrower (foreclosure) file was unavailable during the time of our field visits. The file had been damaged by
floodwater and was being restored. The file was eventually sent for our review to the Bell County, Texas, FSA Office in Belton, Texas, which is
physically proximate to our Temple, Texas, field office.
Douglas J. Caruso                                                                                                                                  6


restructure process, we identified 10 key events.11 (See exhibit A for a complete descriptive list of key
events.)

           Foreclosures

           We selected a statistical sample of 60 counties with 146 borrowers having foreclosure actions,
           including 78 socially disadvantaged foreclosed borrowers and 68 non-socially disadvantaged
           borrowers. (See exhibit B.)

           For each of the 146 borrowers, we looked at the 28 key events where FSA might not conform to
           laws, regulations, policies, and procedures, either by not taking an action or by doing so outside
           an established time frame. Of the 4,088 total key events12 for these 146 borrowers, we found that
           FSA did not technically conform to laws, regulations, policies, and procedures only 31 times
           (26 borrowers). For instance, the agency did not send a notification to a borrower or sent it late.
           Not only was the rate of exception low, but for the two key events with more than three
           exceptions per event (events #1 and #10), analysis of the exceptions indicates we cannot
           conclude there is a significant difference between the socially disadvantaged and non-socially
           disadvantaged borrower groups. For 11 of the other 26 key events, the numbers of exceptions
           (1 to 3) were very low and were comparable between the two groups. (See exhibits A, B, and
           D.) In general, we found that the foreclosure process was in conformity with applicable laws and
           regulations and that FSA generally applied that process consistently to individual borrowers.

                       Key Event #1: Did FSA send the primary notice of loan servicing by the 18th of the
                       month?

                       For key event #1, we determined whether FSA sent the primary loan servicing package
                       to delinquent borrowers (90 days past due on payments) in a timely manner, which we
                       defined as by the 18th of the month following the month in which the borrower becomes
                       delinquent.13, 14 This event is key because it is the moment when FSA informs borrowers
                       that they have become delinquent on their loan and notifies them of actions they can
                       take to avoid foreclosure.

                       For the 146 foreclosed borrowers in our sample, FSA did not timely send the servicing
                       package to 9 borrowers (from 3 to 15 days late for 8 borrowers15), 5 of whom were
                       socially disadvantaged. FSA officials agreed that these packages should have been sent



11
   The foreclosure and the restructure processes share some of the same key events since these two processes are not mutually exclusive. Before
FSA can foreclose on a borrower, the agency must first determine if a restructure is feasible.
12
   4,088 total key events equals 28 key events multiplied by 146 borrowers.
13
   Title 7, Code of Federal Regulations (CFR), chapter XVIII, part 1951, section 907(c), January 1, 2000, edition. Farmers Home Administration
Instruction 1951-S, section 1951.907(c), dated March 14, 1997. (The regulation specifies that the servicing notification should be sent within
15 days of receiving the Finance Office monthly status report. We allowed 3 additional days for county offices to receive the monthly status
report.)
14
   FSA may also send the loan servicing package to borrowers that are in non-delinquent status such as current financially distressed.
15
   One of the socially disadvantaged borrowers was notified 127 days late. Although FSA did send out a loan servicing package at the borrower‘s request
on February 19, 2002, after the borrower became financially distressed, FSA later did not timely send out the required loan servicing package when the
borrower became delinquent. The notification of delinquency should have been sent out by November 18, 2002, but was not sent until March 25, 2003.
The file showed, however, that the agency was communicating with the borrower during this period. For example, FSA made at least two visits to the
borrower‘s farm and was working with the borrower to restructure the borrower‘s loan.
Douglas J. Caruso                                                                                                                               7


                      out timely. Our analysis16 of these nine exceptions did not indicate that there were any
                      statistically significant differences in treatment for socially disadvantaged borrowers
                      compared with non-socially disadvantaged borrowers.

                      Based on our sample, we can project these results onto the audit universe of borrowers
                      on whom FSA foreclosed in FYs 2003 through 2007. We estimate that 6.2 percent of the
                      socially disadvantaged borrower files (or 11 to 12 of 185) do not indicate the primary
                      loan servicing packages were sent on time. Similarly, we estimate that 4.9 percent of the
                      non-socially disadvantaged borrower files (or 8 to 9 of 171) do not indicate the packages
                      were sent on time.

                      Although FSA did not timely conform to this regulation and procedure for the nine
                      borrowers, the agency did eventually send out the loan servicing packages and the
                      borrowers were allowed the required amount of time before the next step in the
                      foreclosure process was taken.

                      Key Event #10: Did FSA send timely notification of its determination that the debt
                      cannot be restructured?

                      For key event #10, we determined whether FSA timely informed borrowers that their
                      loans could not be restructured, which the agency should have done within 15 days after
                      the decision was made.17 This event is key because it is the moment when FSA informs
                      borrowers that the agency cannot restructure their loans and notifies them of the options
                      available to them.

                      For the 146 foreclosed borrowers in our sample, FSA did not timely send notification of
                      its determination that a feasible plan could not be developed to restructure loans to
                      3 borrowers (from 17 to 56 days late), and did not send it at all to 2 borrowers. Of the
                      five borrowers who did not timely receive their notification, four were socially
                      disadvantaged.

                      FSA officials agreed that these five notifications were not sent out or were not sent on
                      time. However, from our analysis of these five exceptions, we cannot conclude there
                      were any statistically significant differences in treatment for socially disadvantaged
                      borrowers compared with non-socially disadvantaged borrowers.

                      Based on our sample, we can project these results onto the audit universe of borrowers
                      FSA foreclosed on from FYs 2003 through 2007. We estimate that 5.0 percent of the
                      socially disadvantaged borrowers (9 to 10 of 185) were notified after 15 days. Similarly,
                      we estimate that 1.2 percent of the non-socially disadvantaged borrowers (2 to 3 of 171)
                      were notified after 15 days. Even though there is an absolute difference of 3.8 percent

16
   We examined individual means and confidence intervals and performed a paired difference test. The paired difference test was applied to the
difference in the number of exceptions between socially disadvantaged and non-socially disadvantaged borrowers, paired by location. (See
exhibit B.)
17
   7 CFR XVIII, part 1951, section 909(h)(3), January 1, 1989, edition. Generally, the regulations provide that, if the DALR$ calculations indicate
a feasible plan of operation cannot be developed, the servicing official will, within 15 days from the date of the determination that the borrower‘s
debt cannot be restructured as requested, send to the borrower by certified mail, return receipt requested, the ‗‗Notification of Adverse Decision
for Primary Loan Servicing, Mediation or Meeting of Creditors and Other Options‖ and attach thereto a printout of the DALR$ calculations.
Douglas J. Caruso                                                                                                                             8


                      between the two values (5.0 percent and 1.2 percent), comparing the two groups with a
                      ―paired difference test‖18 and a ―difference of the means test‖19 does not indicate a
                      statistically significant difference between the socially disadvantaged and non-socially
                      disadvantaged borrower groups in the handling of key event #10.

                      Although FSA did not timely conform to this regulation and procedure for the five
                      borrowers, the agency did eventually notify the borrowers that their loans could not be
                      restructured.20

           Overall, we found that the number of exceptions in processing these foreclosures was small and
           that there was no statistically significant difference in treatment when foreclosing on socially
           disadvantaged farmers and ranchers compared to their non-socially disadvantaged peers. For
           11 of the 28 key events where the exception rate was very low (1 to 3 exceptions), we could not
           draw meaningful conclusions comparing how socially disadvantaged farmers and their non-
           socially disadvantaged peers were treated based on such a small number of exceptions.21 (See
           exhibits A, B, and D, where all exceptions are discussed.) For all key events, these exceptions
           were not significant enough for us to conclude that the Department‘s decisions to implement
           foreclosure proceedings were not consistent and in conformity with applicable laws and
           regulations.

           Restructures

           Since the opportunity to restructure a loan offers borrowers an alternative to foreclosure, we
           looked at restructures to determine if socially disadvantaged borrowers were treated similarly to
           non-socially disadvantaged borrowers. Our review was intended to determine if restructure
           proceedings were consistent and in conformity with applicable laws and regulations.

           We reviewed a statistical sample including 87 borrowers who restructured their loans and
           determined that, for each borrower, there were 10 key events where FSA might not conform to
           law, regulation, policy, and procedure, either by not taking an action or by doing so outside an
           established time frame. Of the 870 key events for these 87 borrowers, we found that FSA did not
           technically conform with laws, regulations, policies, or procedures only 18 times
           (16 borrowers—4 socially disadvantaged, 12 non-socially disadvantaged). We consider this a
           very low exception rate. Each of the exceptions noted was related to the timeliness of FSA‘s
           actions. FSA officials agreed that the actions were not performed on time. (See exhibits A
           and E.)

           Based on our statistical analysis of the individual key events, we cannot conclude there is a
           difference in treatment between the socially disadvantaged and non-socially disadvantaged
           borrower groups. (See exhibit B.) Although FSA did not timely conform to regulations and
           procedures for the 16 borrowers, the agency did eventually take the required actions, and the
           borrowers‘ loans were restructured.
18
   A paired difference test is applied to the difference in the number of exceptions between socially disadvantaged and non-socially disadvantaged
borrowers, paired by location. (See exhibit B.)
19
   We applied the ―difference of the means test‖ to the average exception rates of the two borrower groups. (See exhibit B.)
20
   Two borrowers were not sent notification that they were not eligible for debt restructuring, but were subsequently notified of such adverse
decision at the next event in the foreclosure process.
21
   For the remaining 15 events, no exceptions were noted.
Douglas J. Caruso                                                                                     9


OIG concluded that the Department‘s decisions to implement foreclosure proceedings with respect to
socially disadvantaged borrowers were generally consistent and in conformity with applicable laws and
regulations. For the exceptions noted, our evidence does not indicate that socially disadvantaged farmers
and ranchers are treated differently from their non-socially disadvantaged counterparts when their direct
loans are considered for restructure, or are foreclosed. The noted exceptions involved timeliness issues,
which were eventually corrected.

We are therefore making no recommendations at this time.
Douglas J. Caruso                                                                                                                                                                                                         10



Exhibit A – Key Events and Results
                                                                                                                                                                                                    Exhibit A – Page 1 of 1

                                                                                                                                                                                      Foreclosure         Restructure
                                                                                                                                                                                      Exceptions          Exceptions22
     Event                                                                                                                                                                                    Non-               Non-
      No.                                                                      Description of Key Event/Test                                                                        SDA23     SDA        SDA      SDA
        1        Did FSA send the notice of loan servicing availability by the 18th of the month?                                                                                     5        4           1         3
        2        Did FSA allow the borrower 60 days to submit an application for direct loan assistance?                                                                              0        0           0         1
        3        In cases where the borrower’s application for direct loan assistance was incomplete, did FSA follow up with the borrower?                                            0        0           0         0
        4        Did FSA wait 60 days before sending the borrower the notice of intent to accelerate and notice of borrower’s rights?                                                 1        0           0         0
                 If the borrower requested homestead protection after receiving the notice of intent to accelerate and notice of borrower’s rights, did FSA send the borrower the
        5                                                                                                                                                                             0        0           0         0
                 notice of consideration for homestead protection?
       6         Did FSA send the borrower an offer to restructure the debt within 60 days?                                                                                           1        1           2         8
       7         Did FSA allow the borrower 45 days to respond to the offer to restructure debt?                                                                                      0        0           0         0
       8         After appeal, did FSA allow the borrower another 45 days to accept the offer to restructure debt?                                                                    0        0           0         0
       9         Did FSA process the debt restructure within 45 days?                                                                                                                 1        0           1         1
       10        Did FSA send the notice of adverse decision for primary loan servicing to the borrower within 15 days?                                                               4        1           0         1
       11        Did FSA allow the borrower 45 days to request mediation?                                                                                                             0        0
       12        Did FSA send the borrower the notice of intent to accelerate and notice of borrower’s rights?                                                                        0        0
                 Did FSA send the borrower the notice of intent to accelerate and notice of borrower’s rights when the borrower did not respond to or declined the offer to
       13                                                                                                                                                                             0        0
                 restructure debt?
       14        Did FSA send the homestead protection notification when the borrower did not respond to the offer to restructure the debt or declined the offer?                     0        0
       15        Did FSA determine whether the borrower was eligible for homestead protection?                                                                                        0        1
       16        Did FSA accelerate the borrower’s debt and foreclose on the borrower’s security?                                                                                     0        0
       17        Did the county office complete and sign the loan servicing checklist?                                                                                                0        2
       18        Did the State office review and sign the loan servicing checklist?                                                                                                   1        2
       19        Did the county office receive approval to accelerate the borrower’s debt?                                                                                            0        1
       20        Did FSA send the acceleration notice (demand for payment) to the borrower?                                                                                           1        0
       21        Did the county office receive approval from the State office to liquidate or sell security?                                                                          0        0
       22        Did FSA advertise the sale of the real estate being foreclosed?                                                                                                      0        1
       23        Did FSA sell or account for the chattel (machinery, equipment, crops) security?                                                                                      0        0
                 In cases where FSA received notice the borrower filed bankruptcy before FSA sent the notice of loan servicing availability to the borrower, did FSA send
       24                                                                                                                                                                             1        0
                 correspondence to the borrower’s attorney within 15 days of receiving the notification?
       25        Did FSA allow the attorney 60 days to respond to correspondence?                                                                                                     0        0
                 When FSA received notice the borrower filed bankruptcy after FSA had already sent the notice of loan servicing availability to the borrower, did FSA send
       26                                                                                                                                                                             1        2
                 correspondence to the borrower’s attorney within 15 days of receiving the notification?
       27        Did FSA proceed with acceleration (demand for payment) prior to liquidation (selling security)?                                                                     0         0
       28        Did FSA handle unusual situations such as conservation contracts appropriately?                                                                                     0         0
                                                                                                                                                                                     16        15          4         14
                                                                                                                                                                                          31                    18




22
     Generally speaking, events 11 – 28 do not apply to restructures.
23
     SDA = socially disadvantaged.
Douglas J. Caruso                                                                                                                                 11


Exhibit B – Sampling Plan and Analysis of Results
                                                                                                                          Exhibit B – Page 1 of 10

Purpose of the Sampling

The statistical sampling summarized here supported the audit of whether the Department‘s decisions to
implement foreclosure proceedings with respect to SDA borrowers were consistent and in conformity
with the applicable laws and regulations governing loan foreclosures.

We employed both two-stage and cluster sampling24 for selecting records for review. The measures
evaluated were pass-fail attributes related to the performance of specific loan servicing actions. This
exhibit summarizes our audit universe, sample design, and results.

Audit Universe

In FYs 2003 through 2007, there were 811 borrowers with FSA loan foreclosures. Of those borrowers,
11 were located in Alaska, Hawaii, Puerto Rico, and Guam; these 4 States and territories were excluded
from the audit. The remaining 800 borrowers had foreclosed loans serviced in 441 locations.25 Only
138 locations contained at least 1 foreclosure involving a borrower FSA classified as part of an SDA
group:
        Female,
        African American,
        Hispanic,
        Asian/Pacific Islander, or
        American Indian/Alaskan Native.

We focused on compliance in the servicing of SDA borrowers‘ loans (SDA loans) resulting in
foreclosure. We defined the audit universe as those 138 locations that, based on FSA data, contained at
least 1 SDA loan foreclosure in the specified time period. To have a basis for comparison, we also
examined the servicing of non-SDA foreclosed loans. This universe of 138 locations contained 185 SDA
borrowers and 171 non-SDA borrowers, as highlighted in the table below. We make no projections for
locations or borrowers outside of the defined universe.

           BORROWER CATEGORY                                     LOCATIONS                                FORECLOSURES
            All                                                     441                                        800
            SDA                                                                                                185
            Non-SDA in an SDA                                           138
                                                                                                                     171
            Foreclosure Location
            Non-SDA not in an SDA
                                                                        303                                          444
            Foreclosure Location




24
   In a two-stage sample, large units (i.e., locations) are randomly selected first (primary-stage selection); then individual units (i.e., borrowers)
are selected randomly from the selected larger units (secondary-stage selection). A cluster sample is a special case of two-stage sampling in
which all of the individual units in the selected first stage units are selected.
25
   Throughout this exhibit, we use ―location‖ to mean a State and county combination.
Douglas J. Caruso                                                                                                                            12


                                                                                                                     Exhibit B – Page 2 of 10

The audit universe for loan restructuring was limited to the same SDA locations identified for the
foreclosure testing. The universe of 138 locations included 1,271 borrowers with restructured loans in
FYs 2003 through 2007.

                BORROWER CATEGORY                                         LOCATIONS                         RESTRUCTURES
            All in an SDA Foreclosure
                                                                                138                                  1,271
            Location
            SDA in an SDA Foreclosure
                                                                                                                       306
            Location
                                                                                138
            Non-SDA in an SDA
                                                                                                                       965
            Foreclosure Location

Sample Design and Sample Size

To test compliance with loan servicing criteria, we designed a test of attributes, where each attribute
corresponded to a required servicing action, defined as ―key events‖ in this audit. During the audit,
loan servicing records for these key events were reviewed and exceptions noted. An exception is any
error, deviation, or other measure of non-compliance with a particular criterion. Each borrower file
could contain one exception for each criterion applicable to the case. Therefore, a borrower file could
contain multiple exceptions, each related to a different criterion. Exceptions were assigned only if
OIG determined a particular criterion applied to a particular borrower and the handling was
non-compliant. Where OIG determined a particular criterion did not apply to a particular borrower,
the record was considered compliant, i.e., no exception was assigned to that borrower/criterion
combination.

We had two categories of borrowers, SDA and non-SDA, as well as two categories of servicing actions,
foreclosure and restructure, we wished to test. We chose a multi-stage sample design with location
selected at the first stage. Borrowers were selected at the second stage.

To determine sample size, we began by assuming we would not encounter an exception rate exceeding
30 percent on any tested criterion. While we had no prior information regarding the potential magnitude
of exceptions for the criteria planned for testing, we had no reason to anticipate extremely high rates of
non-compliance. We desired a confidence level of 95 percent with a precision on the proportion not
greater than ±8 percent for the 30 percent exception rate. In other words, if the observed exception rate
was in fact 30 percent, then the 95 percent confidence interval would be no wider than 22 percent to
38 percent. Lower exception rates would result in narrower (tighter) confidence intervals.26 Using the
parameters above, we calculated sample size for a simple random27 sample of borrowers from the SDA
foreclosure universe of 185 and, using the standard formula for calculating sample size for a proportion
for simple random samples,28 arrived at a desired sample size of 75 SDA borrowers.


26
   For example, a sample size sufficient to provide +/-8 percent precision on a 30 percent error rate would be expected to provide +/-4 percent
precision on a 5 percent error rate.
27
   Also known as unrestricted random.
28
   Sample size = [Np(1-p)] / [(N-1)(B/z)2 + p(1-p)], where: N = Universe size (185 borrowers); p = exception rate allowed for in planning (0.30);
B = desired precision (0.08); z = 1.96 for 95 percent confidence level. We chose to calculate sample size based on borrowers and then to see how
many locations that generated, rather than calculating sample size based on locations, because we expressed the planned-for exception rate and
the desired precision in terms of percentage of borrowers rather than percentage of locations.
Douglas J. Caruso                                                                                                                                  13


                                                                                                                          Exhibit B – Page 3 of 10

For the key-event testing of foreclosures, we included all borrowers in the selected locations. Therefore,
both the SDA foreclosure group and the non-SDA foreclosure group were cluster samples.29

To determine the number of locations needed to generate the desired sample of 75 SDA borrowers, we
first put the 138 locations into random order.30 Then, starting with the first location thus randomly
selected, we progressed through the random list of locations accumulating the count of SDA borrowers
in each location until the total reached or exceeded 75. This process produced a total of 60 locations,31
with 78 SDA borrowers on the FSA foreclosure listing.

Of the 60 locations, 32 did not have any non-SDA borrowers; the remaining 28 locations contained a
total of 68 non-SDA borrowers on the FSA listing.

For loan restructures, we determined there were 689 borrowers with restructured loans in the sample of
60 locations. Some locations contained a large number of borrowers with restructured loans. Therefore,
we selected a random sample of six borrowers for each location that had more than six borrowers. SDA
and non-SDA borrowers were not separated in advance for this selection of the six borrowers. For all
60 selected locations, this generated a total of 258 borrowers to review, which proved to be prohibitive
within the time frame allowed to perform the audit. Therefore, we approached the test of restructured
loans as a stop-or-go sample, based on the number of exceptions found in the first 20 locations in the
random sample. The first 20 locations included 213 borrowers; the two-stage selection process resulted
in a sample of 87 randomly selected borrowers in those 20 locations.32

Because not all restructured loans were reviewed at a given location, this was a two-stage sample rather
than a cluster sample.

Results

Overall, the review found very few exceptions for the procedural key events tested. We show the raw
totals below to illustrate the generally low numbers of exceptions observed. We noted that just over half
of the foreclosure key events with exceptions had broad applicability, while the remainder applied only
to a few specific loans; for restructures, four out of the five events with exceptions were broadly
applicable. For both foreclosures and restructures, the key events that were broadly applicable to SDA
borrowers were the same as those for non-SDA borrowers. For many of the key events tested, we found
no exceptions in either group, and we did not include those key events in the tables below.




29
   A cluster sample is a special case of a two-stage sample. In a cluster sample all units (borrowers, in this audit) are selected in the second stage.
30
   We used the Excel ―randbetween‖ function to select random numbers for each location.
31
   We reached exactly 75 SDA borrowers at the fifty-seventh location selected. We chose to continue to the sixtieth random location, for a total
of 78 SDA borrowers, to provide some coverage of other combinations of the unknown parameters.
32
   We originally had 88 borrowers in the restructure sample. For 1 of the 88 borrowers, we received an incorrect file. We dropped the borrower
from the sample, resulting in a sample of 87.
Douglas J. Caruso                                                                                                        14


                                                                                                     Exhibit B – Page 4 of 10

                                                                     SDA Raw Data (from           Non-SDA Raw Data
                                                                      review of 78 SDA         (from review of 68 non-
                                                                       borrowers with            SDA borrowers with
                                                                        foreclosures)               foreclosures)
                Foreclosure Key Event                                 Event                      Event
                                                                     Applied
                                                                                Exceptions      Applied
                                                                                                               Exceptions
  1: Did FSA send the notice of loan servicing availability by
                                                                          68           5          56                4
  the 18th of the month?
  4: Did FSA wait 60 days before sending the notice of intent
                                                                          43           1          40                0
  to accelerate and notice of borrower’s rights to the borrower?
  6: Did FSA send the borrower an offer to restructure the debt
                                                                          2            1             1              1
  within 60 days?
  9: Did FSA process the debt restructure within 45 days?                 1            1             0              0
  10: Did FSA send the notice of adverse decision for primary
                                                                          11           4             9              1
  loan servicing to the borrower within 15 days?
  15: Did FSA determine whether the borrower was eligible for
                                                                          15           0          12                1
  homestead protection?
  17: Did the county office complete and sign the loan
                                                                          66           0          55                2
  servicing checklist?
  18: Did the State office review and sign the loan servicing
                                                                          67           1          52                2
  checklist?
  19: Did the county office receive approval to accelerate the
                                                                          67           0          53                1
  borrower’s debt?
  20: Did FSA send the acceleration notice (demand for
                                                                          63           1          56                0
  payment) to the borrower?
  22: Did FSA advertise the sale of the real estate being
                                                                          47           0          33                1
  foreclosed?
  24: In cases where FSA received notice the borrower filed
  bankruptcy before FSA sent the notice of loan servicing
  availability to the borrower, did FSA send correspondence to            3            1             3              0
  the borrower’s attorney within 15 days of receiving the
  notification?
  26: When FSA received notice the borrower filed bankruptcy
  after FSA had already sent the notice of loan servicing
  availability to the borrower, did FSA send correspondence to            7            1          13                2
  the borrower’s attorney within 15 days of receiving the
  notification?
        Totals for 13 Key Events with Exceptions                         460           16        383                15

In aggregate, the 2 borrower groups were almost equal across the 28 foreclosure key events: for the
78 SDA borrowers, we found 16 exceptions; for the 68 non-SDA borrowers, we found 15 exceptions.

                                                                   SDA Raw Data (from        Non-SDA Raw Data (from
                                                                    review of 18 SDA          review of 69 non-SDA
                                                                     borrowers with              borrowers with
                                                                      restructures)                restructures)
              Restructure Key Event                                 Event                      Event
                                                                   Applied
                                                                               Exceptions     Applied
                                                                                                              Exceptions
  1: Did FSA send the notice of loan servicing availability
  by the 18th of the month?
                                                                     11            1            35                  3
  2: Did FSA allow the borrower 60 days to submit an
  application for direct loan assistance?
                                                                     16            0            61                  1
  6: Did FSA send the borrower an offer to restructure the
  debt within 60 days?
                                                                     16            2            58                  8
  9: Did FSA process the debt restructure within 45 days?            16            1            58                  1
  10: Did FSA send the notice of adverse decision for
  primary loan servicing to the borrower within 15 days?
                                                                     0             0             1                  1
                 Totals for 5 Key Events                             59            4            213                14
Douglas J. Caruso                                                                                                                                           15


                                                                                                                                 Exhibit B – Page 5 of 10

In the restructures category, the raw total of 14 errors for 69 non-SDA borrowers appears considerably
higher than the 4 errors for 18 SDA borrowers; however, the SDA error rate is comparable to the
percentage of SDA borrowers in the sample (18 SDA borrowers / 87 total borrowers = 0.21; 4 SDA
exceptions / 18 total exceptions = 0.22).

Foreclosure Servicing Projections

To determine compliance with applicable laws and regulations, we projected these outcomes from the
sample data to the audit universe. We first projected the averages and associated 95 percent confidence
intervals for each key event. We used the cluster sample evaluation methodology33 for events with
several errors. For events with three or fewer errors in the borrower category (SDA or non-SDA,
individually), we calculated upper error limits using the inverse beta function,34 due to the rare
occurrence of exceptions. In addition, we compared the results for the two borrower groups. However,
the groups are not independent because the same locations are used for each. Therefore, we determined
the critical value and test statistics for the paired difference experiment,35 also called the random block
experiment, using the locations as the ―blocks.‖

Of the foreclosure key events with exceptions, we typically found only one or two exceptions, and only
five foreclosure key events showed exceptions in both the SDA group and the non-SDA group. We
present below the projected proportions of both SDA and non-SDA borrowers with exceptions for the
two foreclosure key events with more than three total exceptions.36 The results for these two key events
illustrate two conditions of particular interest: (1) key event #1, with a total of nine exceptions, had the
greatest number of exceptions; (2) key event #10, had the largest observed difference in the number of
exceptions between the SDA and non-SDA borrowers. All other key events had lower projected
numbers of exceptions in the audit universe and a smaller difference in the number of exceptions
between the two groups. Therefore, these two key events represent the most extreme foreclosure
servicing cases within the audit.

Foreclosure Servicing Key Event #1:                                        Did FSA send the notice of loan servicing
availability by the 18th of the month?

Key event #1 had the largest number of exceptions in the sample, five in the SDA borrower group and
four in the non-SDA borrower group. The projected exception rates are 6.2 percent for the SDA group
and 4.9 percent for the non-SDA group.37 The key event #1 projections below illustrate that, even
though the groups had several exceptions, the near-equality in the number of exceptions and in the
number of borrowers per group produces point estimates and confidence intervals38 that are similar.
33
   Scheaffer, Mendenhall, and Ott, 1990, Elementary Survey Sampling, 4th edition, Belmont, CA: Duxbury Press. We used the unbiased method for two-
stage sample, from chapter 9, with zero variation within the clusters.
34
   We first used the EXCEL ―BETAINV‖ function to obtain results consistent with the binomial distribution. We then included finite population correction
factors consistent with the hypergeometric distribution.
35
   McClave, Benson, Sincich, 1998, Statistics for Business and Economics, 7th edition, Upper Saddle River, NJ: Prentice Hall.
36
   The ―three total exceptions‖ refers to the combined total for SDA and non-SDA borrower groups.
37
   These values do not match a simple computation of exceptions divided by borrowers because of the effects of the cluster sample. Specifically, the
projected 6.2 percent for the SDA case comes from: (5 exceptions) ÷ (60 SDA locations in the sample) × (138 SDA locations in the universe) ÷ (185 SDA
borrowers in the universe). The non-SDA value, 4.9 percent, comes from: (4 exceptions) ÷ (28 sample locations that had non-SDA borrowers) x (59
universe locations that had non-SDA borrowers) ÷ (171 non-SDA borrowers in the universe).
38
   The point estimate, reported as the single value representing the projected outcome resulting from the sample, is an average value that takes into account
the sample design factors. In this audit, the two-stage design is the source of the design factors. It is not any more likely an outcome than any other point in
the confidence interval. The confidence interval is the point estimate plus and minus the probability-based uncertainty value calculation from variation
among the sampled borrowers and locations. All samples have inherent uncertainty. The width of the confidence interval is indicative of the variability
Douglas J. Caruso                                                                                                                           16


                                                                                                                    Exhibit B – Page 6 of 10



                    Key Event #1: Confidence Interval (95 Percent
                    Confidence Level; Lower Limits Constrained by
                              Errors Observed in Sample)


                          2.3%                  4.9%                         9.3%




                             2.7%                      6.2%                         10.3%




     0.0%                                      5.0%                             10.0%                                 15.0%
                                     Proportion of Borrowers with Exceptions


               SDA [sample exceptions = 5]                               NON-SDA [sample exceptions = 4]


The asymmetry39 in the illustrated intervals occurs because the lower bounds shown are the ―observed
minimum‖ bounds. These are calculated as the number of exceptions observed in the sample divided by
the number of borrowers in the audit universe for the corresponding borrower group (i.e., 5 SDA
borrowers with exceptions / 185 borrowers in the SDA universe = 2.7 percent for SDA, and 4 non-SDA
borrowers with exceptions / 171 borrowers in the non-SDA universe = 2.3 percent for non-SDA).40
Because the observed minimums are higher than the corresponding lower bounds of the 95 percent
confidence intervals (2.2 percent and 0.6 percent, respectively), we chose to show the observed values.

Based on the sample results, we project that between 2.7 percent and 10.3 percent of the SDA
foreclosure borrower files will not indicate that the package was sent timely, i.e., by the 18th of the
month following the delinquency. Our point estimate is that 6.2 percent of the SDA borrower files will
not indicate that the package was sent timely. This point estimate equates to between 11 and 12 of the
185 SDA foreclosure borrowers in the audit universe.

Based on the sample results, we project that between 2.3 percent and 9.3 percent of the non-SDA
foreclosure borrower files will not indicate that the package was sent timely, i.e., by the 18th of the
month following the delinquency. Our point estimate is that 4.9 percent of the non-SDA borrower files
will not indicate that the package was sent timely. This point estimate equates to between 8 and 9 of the
171 non-SDA foreclosure borrowers in the audit universe.



associated with the results obtained in the sample.
39
  Confidence intervals without the constraint would be symmetrical around the point estimate.
40
  The ―observed minimum ―is not affected by design factors. It is simply the lowest percent of borrowers with a loan servicing exception that is
possible, based on the observed number of exceptions.
Douglas J. Caruso                                                                                                                              17


                                                                                                                       Exhibit B – Page 7 of 10

With the complete overlap of the confidence intervals, we might conclude immediately that there is no
difference in the treatment of the two borrower groups for key event #1. Because the two samples are
not independent, however, we also test the null hypothesis that the averages of the two groups are equal
using a paired difference methodology. This test is applied to the difference in the number of exceptions
between SDA and non-SDA borrowers, paired by location. We find that the test statistic value of
0.40 does not exceed the critical value of 2.00, indicating that we have insufficient evidence to reject the
null hypothesis. In other words, we cannot say the handling of key event #1 was different between the
two borrower groups.41

Foreclosure Servicing Key Event #10:          Did FSA send timely notification of
determination that the debt cannot be restructured?

Key event #10 shows the only foreclosure event for which the difference in the number of exceptions
between the two borrower groups was greater than two. Even with four exceptions for the SDA group
and one exception for the non-SDA group, we still observed overlap between the 95 percent confidence
intervals. As with key event #1, the lower bounds shown are the observed minimum values rather than
the lower bounds of the 95 percent confidence interval (for SDA, 2.2 percent observed versus
0.5 percent for the confidence interval; for non-SDA, 0.6 percent observed versus -0.6 percent for the
confidence interval).42


                 Key Event #10: Confidence Interval (95 Percent Confidence
               Level; Lower Limits Constrained by Errors Observed in Sample)



             0.6% 1.2%                 3.1%




                             2.2%                          5.0%                                               9.5%




      0.0%      1.0%       2.0%       3.0%       4.0%       5.0%      6.0%       7.0%       8.0%       9.0%      10.0%

                                Proportion of Borrowers with Exceptions

                 SDA [sample exceptions = 4]                         NON-SDA [sample exceptions = 1]


Based on the sample results, we project that between 2.2 percent and 9.5 percent of the SDA foreclosure
borrower files will show that the required notification was not sent within 15 days of the determination

41
  Conclusion is for level of significance (alpha) = 5 percent, or confidence level of 95 percent.
42
  Calculated lower bounds can go negative. This is just the result of the variability found in the sample results compared to a low point estimate.
A larger sample might have produced a tighter interval. We elected to show the observed minimum values, since they were higher than the
calculated lower bounds.
Douglas J. Caruso                                                                                                                              18


                                                                                                                       Exhibit B – Page 8 of 10

of a non-feasible plan. Our point estimate is that 5.0 percent of the SDA foreclosure borrower files will
show notification times exceeding 15 days. This point estimate equates to between 9 and 10 of the
185 SDA foreclosure borrowers in the audit universe.

Based on the sample results, we project that between 0.6 percent and 3.1 percent of the non-SDA
foreclosure borrower files will show that the required notification was not sent within15 days of the
determination of a non-feasible plan. Our point estimate is that 1.2 percent of the non-SDA borrower
files will show notification times exceeding 15 days. This point estimate equates to between 2 and 3 of
the 171 non-SDA foreclosure borrowers in the audit universe.

While the confidence intervals for key event #10 overlap, they do so much less than do the confidence
intervals for key event #1. If these same results had come from independent samples, i.e., not using the
same locations, we might rely solely on the overlapping condition to indicate there is an inconclusive
result regarding any difference in the two groups. However, because the two samples are not
independent, we need to consider whether another test provides better information.

Therefore, we test the null hypothesis that the averages of the two groups are equal using the paired
difference methodology, applied to the difference in the number of exceptions between SDA and
non-SDA borrower groups, paired by location. We find that the test statistic value of 1.51 does not
exceed the critical value of 2.00, indicating that we have insufficient evidence to reject the null
hypothesis. Based on this test, we cannot reject the hypothesis that the two groups were treated the same
with respect to this key event.43

We noted that this key event falls into the category of events that are not broadly applicable to borrowers
in the foreclosure servicing sample. Both the number of exceptions and the number of loans to which the
event applies are very small. This results in conditional44 exception rates considerably higher than those
calculated as universe averages. Specifically, the SDA conditional exception rate, given that key
event #10 applied, is 36 percent, from 4 exceptions out of 11 loans. The corresponding non-SDA
conditional exception rate is 11 percent, from one exception out of nine loans.45 Therefore, we tested for
a significant difference between the conditional exception rates.

We noted there were very few borrowers, in very few locations, to whom key event #10 applied. Also,
the applicability generally occurred in different locations for SDA compared to non-SDA borrowers.
Only 1 of the 17 locations to which this event applied had both SDA and non-SDA borrowers.
Therefore, for the test of the conditional exception rates, we compared the SDA and non-SDA groups as
though they were independent. Using only these 17 locations, the test for a difference of the average
exception rates yielded a test statistic of 1.63. The critical value for 15 degrees of freedom46 at the
primary stage is 2.131. Because 1.63 is less than 2.131, this test, too, indicates that we cannot say that
the handling of the two groups was different with respect to this key event.47

43
   Conclusion is for level of significance (alpha) = 5 percent, or confidence level of 95 percent.
44
   A conditional probability is the probability an event occurs given that some other event has already occurred. Here, the ―condition‖ is that the
key event applies to a borrower. The conditional probability of an exception is the probability of an exception given that the event applied to the
borrower. This is an issue only for events with very low applicability, meaning, they did not apply to most borrowers.
45
   The proportions adjusted to include the two-stage sample design factors are 29.8 percent for SDA and 4.9 percent for non-SDA.
46
   Degrees of freedom for 10 SDA locations = 10 - 1 = 9. Degrees of freedom for 7 non-SDA locations = 7 - 1 = 6. Degrees of freedom for the
difference of the averages = 9 + 6 = 15 degrees of freedom.
47
   Conclusion is for level of significance (alpha) = 5 percent, or confidence level of 95 percent.
Douglas J. Caruso                                                                                                                        19


                                                                                                                 Exhibit B – Page 9 of 10

In summary, we are unable to establish a difference between the handling of SDA and non-SDA loan
servicing actions for key event #10. Any effect on overall compliance from this event would be
extremely small based on the very limited number of borrowers to which this event applies.

Restructure Servicing Projections

We also projected the restructure results to the audit universe of 138 locations. The averages and
associated 95 percent confidence intervals for each borrower group and key event were determined
using a two-stage sample evaluation methodology.48 Because of audit deadlines, we limited our sample
number of locations to the first 20 locations selected, based on initial indications that the error rates were
low. We later determined that error rates for a few key events were higher than initially thought, which
resulted in poorer achieved precision than targeted at the sample design stage.

As we did with foreclosures, we show the restructure servicing results for the events reflecting more than
three exceptions in the raw data for the combined borrower groups. Therefore, we show results for key
events #1 and #6 in the table below. For key event #1, the SDA interval 0.3 percent to 7.3 percent is
entirely contained within the non-SDA interval 0.3 percent to 12.8 percent. For key event #6, the
non-SDA interval 0.8 percent to 12.9 percent is completely contained within the SDA interval
0.7 percent to 23.1 percent.

We include in the table below the results for the two borrower groups separately, based on the data
acquired. We also include the combined results as a measure of overall compliance in servicing loan
restructures.

     Restructure Review Summary                                         SDA                     Non-SDA                   Combined
     Number of borrowers in audit universe of
                                                                         306                        965                        1271
     138 locations
     Number in 60 locations selected                                  147                           542                         689
     Number in 20 locations selected                                  49                            164                         213
     Number in sample of 20 locations                                 18                            69                          87
                                                              Key Event #1:
                                    Fraction with an
                                                                        2.4%                         5%                          4.4%
                   49               exception
     Point Estimate
                                    Number with an
                                                                          7                          48                          56
                                    exception

     95 percent confidence          Fraction with an
                                                                   0.3% to 7.3%              0.3% to 12.8%              0.3% to 10.5%
     interval [lower limit          exception
     constrained by observed        Number with an
                50 49
     minimum ]                                                         1 to 22                   3 to 123                     4 to 133
                                    exception




48
   Scheaffer, Mendenhall, and Ott, 1990, Elementary Survey Sampling, 4th edition, Belmont, CA: Duxbury Press.
49
   Because of the two-stage sample design, SDA projections and non-SDA projections may not add to the combined projections.
50
   Observed minimum equals number of errors observed in sample divided by number of borrowers in group in audit universe.
Douglas J. Caruso                                                                                          20


                                                                                     Exhibit B – Page 10 of 10


 Restructure Review Summary                              SDA           Non-SDA                Combined
                                                 Key Event #6:
                              Fraction with an
                                                        9.6%             6.8%                    7.6%
                49            exception
 Point Estimates
                              Number with an
                                                          29              66                      97
                              exception
 95 percent confidence        Fraction with an
 interval [lower limit                              0.7% to 23.1%    0.8% to 12.9%          2.2% to 13.0%
                              exception
 constrained by observed
 minimum for SDA and          Number with an
                       49                               2 to 71        8 to 125               28 to 166
 Non-SDA columns]             exception



Conclusion

For both SDA and non-SDA borrowers, we observed exceptions to loan servicing standards for both
foreclosure and restructure events. However, based on the sample results, we find insufficient evidence
to conclude that the SDA and non-SDA borrower groups were treated differently for either foreclosure
or restructure events.
Douglas J. Caruso                                                                                                                            21


Exhibit C – Review Sites
                                                                                                                      Exhibit C – Page 1 of 1




                                                            25 States
                                                            For Which
                     Review Sites                         Borrower Files                Foreclosure                Restructure
                                                              Were                       Borrower                   Borrower
                                                            Reviewed                       Files                      Files
             Little Rock, Arkansas                             Arkansas                         22                        21

             Alexandria, Louisiana                             Louisiana                        33                         7

             College Station, Texas                              Texas                          31                         7

             Jackson, Mississippi                             Mississippi                       12                         0

             Harrisburg, Pennsylvania                         Maine                             2                          6
                                                           Massachusetts                        4                          6
                                                            New Jersey                          4                          5
                                                             New York                           5                          0
                                                             Vermont                            1                          3
                                                              Virginia                          1                          0
                                                           West Virginia                        1                          6
                                                                                                18                        26

             Athens, Georgia                                  Alabama                           1                          3
                                                               Florida                          5                          0
                                                               Georgia                          1                          0
                                                            North Carolina                      5                          7
                                                            South Carolina                      4                          0
                                                             Tennessee                          3                          1
                                                                                                19                        11

             Columbia, Missouri                               Michigan                          2                          6
                                                                 Ohio                           1                          0
                                                              Wisconsin                         2                          0
                                                              California                        1                          0
                                                              Minnesota                         1                          6
                                                               Missouri                         1                          4
                                                             North Dakota                       251                        0
                                                              Oklahoma                          1                          0
                                                                                               11                         16
                             Total                                                             146                        87




51
   One socially disadvantaged borrower file was unavailable during the time of our field visit. The file had been damaged by floodwater and was
being restored. The file was eventually sent for our review to the Bell County, Texas, FSA Office in Belton, Texas, which is physically proximate
to our Temple, Texas, field office.
        Douglas J. Caruso                                                                                                            22


        Exhibit D – Results by State and County - Foreclosures
                                                                                                                  Exhibit D – Page 1 of 2


                          Borrowers




                                                                                         Borrowers
                                                                                         Non-SDA
                            SDA


                                              SDA Exceptions by Event Number                             Non-SDA Exceptions by Event Number

State        County                   1   4     6    9    10    18    20       24   26               1   6   10    15    17    18    19     22   26
 AL         PICKENS          1                                                               0
 AR           BENTON         1                                                               2
 AR          CALHOUN         1                                                               0
 AR        CRITTENDEN        2                                                               0
 AR        HEMPSTEAD         1                                                               1
 AR          HOWARD          2                             1                                 2
 AR         LAWRENCE         1                                                               1
 AR              LEE         1                                                               2           1
 AR        LITTLE RIVER      1                                                               1
 AR           SEVIER         1                                                               1
 AR         WOODRUFF         1                                                               0
 CA        STANISLAUS        1                                                               0
 FL             DADE         1                                                               2       1
 FL           MARION         2                             1     1                           0
 GA            IRWIN         1                                                               0
 LA         AVOYELLES        1        1                                                      1
 LA            CADDO         1        1                                                      0
 LA       EAST CARROLL       1                                                               3
 LA          OUACHITA        2                                                               0
 LA          RICHLAND        1                                                               5                                                   1
 LA         ST. LANDRY       2                                                               2       2
                WEST
 LA                          7                             2                                 7
             CARROLL
ME          SOMERSET         1                                                               1       1
MA         WORCESTER         2                                                               2                           1      1
MI            ALCONA         1        1                                                      0
MI           BERRIEN         1        1                                                      0
           WEST OTTER
MN                           1                                                               0
                TAIL
MS            BOLIVAR        1                                                               4
MS         PEARL RIVER       1                                                               4
MS            YAZOO          1                                                               1
MO          MISSISSIPPI      1                                                               0
NJ        CUMBERLAND         1                                                               3
NY        ST. LAWRENCE       2        1                                                      3
NC        CUMBERLAND         1                                                               0
NC         EDGECOMBE         1                                                               0
NC        PASQUOTANK         1                                                               0
NC           PERSON          1                                                               1
ND             SIOUX         2                                                      1        0
OH            HURON          1                                                               0
OK        PUSHMATAHA         1                                                               0
SC         CLARENDON         1                                                               0
SC              LEE          1                                                               2
TN             DYER          1                                                               0
TN             GILES         1                                                               0
TN         ROBERTSON         1                                                               0
        Douglas J. Caruso                                                                                                               23

                                                                                                                   Exhibit D – Page 2 of 2




                           Borrowers




                                                                                          Borrowers
                                                                                          Non-SDA
                             SDA
                                               SDA Exceptions by Event Number                             Non-SDA Exceptions by Event Number

State         County                   1   4     6     9   10    18    20       24   26               1   6   10     15    17    18     19   22    26
 TX           BAILEY          1                                                               4                                                    1
 TX          DAWSON           3            1                                                  8                1      1     1     1     1    1
 TX        HENDERSON          1                                                               0
 TX         HUDSPETH          1                                                               1
 TX         JIM WELLS         1                                        1                      0
 TX            LEON           1                                                               0
 TX        LIMESTONE          1                                                               0
 TX           PECOS           2                                                               0
 TX          PRESIDIO         2                                                               0
 TX           UPTON           1                                                               2
 TX           ZAPATA          1                  1     1                                      1
 VT         WINDSOR           1                                                               0
 VA        BRUNSWICK          1                                                               0
 WV         MARSHALL          1                                                 1             0
 WI          OCONTO           1                                                               1
          Totals             78        5   1       1   1     4    1     1        1    1     68        4   1    1      1      2     2     1     1    2

We reviewed all 78 SDA and 68 non-SDA borrowers.
Douglas J. Caruso                                                                                        24


Exhibit E – Results by State and County - Restructures
                                                                                      Exhibit E – Page 1 of 1


                                          SDA Exceptions by               Non-SDA Exceptions by Event
                                SDA          Event Number     Non-SDA              Number
    State        County       Borrowers    1       6      9   Borrowers   1    2    6      9      10
     AL         PICKENS          1                               2        1
     AR       HEMPSTEAD          2               1               4
     AR        HOWARD                                            3                   1      1
     AR           LEE            3                               3
     AR      LITTLE RIVER        3                               3                   1
     LA        OUACHITA                                          1
     LA       ST. LANDRY                                         6        1
     ME      SOMERSET, PT        2                               4
     MA     WORCESTER, PT        1                               5                   2
     MI         ALCONA           1               1               5
     MN     WEST OTTER TAIL      1                               5
     MO       MISSISSIPPI        1                               3
     NJ      CUMBERLAND                                          5
     NC       EDGECOMBE                                          6
     NC         PERSON                                           1        1                         1
     TN          DYER                                            1
     TX       HUDSPETH           1                               5                   1
     TX          LEON            1        1                      0
     VT        WINDSOR           1                      1        2                   1
     WV        MARSHALL                                          6             1     2
             Totals              18       1      2      1        69       3    1     8      1       1
